HHS/OIG-Audit--"Review of Recharge Center Controls At The University OfMaryland, College Park, (CIN:A-03-95-04011)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Recharge Center Controls At The University Of Maryland, College Park." (A-03-95-04011)
March 26, 1996
Complete
Text of Report is available in PDF format (892 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the University operated its recharge centers in accordance with the
Office of Management and Budget (OMB) Circular A-21. Our review determined that, with one exception (use of fund balances),
the University's policies for recharge centers were in accordance with the provisions of the OMB Circular. We noted, however,
that not all of the recharge centers properly implemented these policies.
Some recharge centers:
did not periodically adjust billing rates to eliminate accumulated surpluses and deficits over a specified operating
cycle and did not maintain adequate cost studies to support billing rates;
did not charge all users equitably;
used funds for unrelated purposes; and
included recharge center costs in the calculation of the indirect cost rate.
See report for more details.